BECKER GALLAGHER
Briefs

and

Supreme Court of the United States
United States Courts of Appeals

Records

CERTIFICATE OF COMPLIANCE
No. 20-1461
JAIRO ACOSTA,
POLICE OFFICER FOR THE CITY OF

Los BANOS,
Petitioner,

v.
TAN LAM, AS SUCCESSOR-IN-INTEREST TO DECEDENT
SONNY LAM (AKA SON TUNG LAM),

Respondent.
As required by Supreme Court Rule 33.1 (h), I certify
that the Reply to Opposition to Petition for a Writ of
Certiorari contains 2,653 words, excluding the parts of
the Petition that are exempted by Supreme Court Rule
33.l(d).
I declare under penalty of perjury that the foregoing
is true and correct.
Executed on August 17, 2021.

Becker Gallagher Legal Publishing, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

(800) 890.5001
www.beckergallagher.com

8790 Governor's Hill Drive
Suite 102
Cincinnati, Ohio 45249

Franklin Square
1300 I Street, NW, Suite 400E
Washington, DC 20005

Sworn to and subscribed before me by said Affiant
on the date designated below.

[seal]

JOHN D. GALLAGHER
No!ary Public, State of Ohio
My Commission Expires
r,.:bruary 14, 2023

